Credit Disclosures

Interest Rate and Interest Charges
Variable Annual Percentage Rate
(APR) for Purchases
APR for Balance Transfers

APR for Cash Advances
Paying Interest

Credit Card Tips from the Consumer
Financial Protection Bureau
Minimum Interest Charge

0% Introductory APR for 6 months, from the date the account is opened.
After that your APR will be a variable rate of 9.99% - 23.99%
based on your credit worthiness. This APR will vary with the market based
on the Prime Rate.
0% Introductory APR for 6 months, from the date the account is opened.
After that your APR will be a variable rate of 9.99% - 23.99% based on
your credit worthiness. This APR will vary with the market based on the
Prime Rate.
19.99% - 23.99% This APR will vary with the market based on the Prime Rate.
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you interest on purchases if you pay your entire
balance by the due date each month. We will begin charging interest
on balance transfers and cash advances on the transaction date.
To learn more about factors to consider when applying for or using
a credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.
None

Fees
Annual Fee

Transaction Fees
Balance Transfer
Cash Advance
Foreign Transaction
Penalty Fees
Late Payment
Over-the-Credit Limit
Returned Payment

None
None
Either $10 or 3% of the transaction amount, whichever is greater.
3% of each transaction in U.S. dollars.
Up to $35
None
Up to $35

How we will calculate your balance: We will use a method called
“average daily balance (including new purchases).” If you accept this
offer, you will receive a New Account Agreement which will define
this method.
How your rate is determined: Your rate is determined by adding the
following margins as applicable to the Prime Rate as published in The
Wall Street Journal as of the fifteenth day of the month prior to your
Account Statement closing date; Purchases 6.74% - 20.74% plus Prime
Rate, Balance Transfers 6.74% - 20.74% plus Prime Rate, Cash Advances
16.74% - 20.74% plus Prime Rate depending on your credit worthiness
at the time your account is opened.
Minimum Payment Calculation: The monthly payment amount will
be 2.5% of the account balance on the last day of the billing cycle, or
$20, whichever is greater.
Billing Error Rights: Information on your rights to dispute
transactions and how to exercise those rights is provided in your
account agreement.
Loss of Introductory APR: We may end your Introductory APR and
apply the Standard APR if you make a late payment or as defined in the
Card Agreement.
The information about the cost of the card described in this
application is accurate as of May 1, 2020. This information may have
changed after that date. To find out what may have changed, write to
us at Great Western Bank, Attn: Credit Card Operations, PO Box 2345,
Sioux Falls, SD 57101-2345.

ADDITIONAL DISCLOSURES AND TERMS & CONDITIONS
I am applying to Great Western Bank for a credit card account.
To qualify, I understand:
• Approval is based upon satisfying Great Western Bank’s
credit standards.
• I must be at least 18 years of age (19 in Alabama and 21 Puerto
Rico) and have a valid social security number, unless otherwise
specified, as required to satisfy the minimum legal contracting
age of my state.
• I may be ineligible if I have responded to a previous offer for a
credit card issued by Great Western Bank within the last 45 days
or if I have been approved for a previous Great Western Bank
credit card offer.
• I must meet the minimum income requirements.
With respect to this offer, I acknowledge that:
• I authorize Great Western Bank to check my credit and
employment history and to answer questions about its
credit experience with me.
• If I am approved, Great Western Bank may contact me from
time to time regarding my credit card.
• I will receive the Great Western Bank Customer Agreement
and am bound by its terms and all future revisions.
• If approved, this offer is nontransferable and void to residents
of GU, PR, VI and other U.S. dependent areas.
• The terms of this offer may not be applied to existing Great
Western Bank accounts.
©2020, Great Western Bank | Page 1 of 2

• G
 reat Western Bank will retain my application whether or not
I am approved for an account.
• The exact amount of my credit line will be determined by
Great Western Bank after review of my application and
other information.
• Certain restrictions apply to the card benefits in this offer.
(Full details will be mailed to you upon approval.)
• Everything that I have stated in this application is correct
to the best of my knowledge.
• This is not a business account.
• If I fail to fulfill the terms of my credit obligations, you may
submit a negative credit report reflecting on my credit record
to a credit reporting agency.
If I complete the authorized user section of the application, I
understand that I am responsible for all charges made by the
designated authorized user and anyone they allow to use an
account, and are subject to the terms of the account agreement.
BALANCE TRANSFER IMPORTANT INFORMATION
Balance transfers are contingent upon issuance of your account with
us. Balance transfers will be applied to your account and sent to your
designated payee(s) after your account is opened. Each transfer will
reduce your available credit just like any other transaction. You will
see a payment for the amount transferred on the statement from your
other accounts. It may take up to three weeks to set up your new
account with us and process the balance transfer(s), so you may still
need to make payments to your other accounts to keep them current.
There is no fee for balance transfers. We will begin charging you
interest on balance transfers on the transaction date. We may decline
to process any full or partial balance transfer request(s), depending on
the credit line assigned to your credit card account. In the event that
your request(s) exceed the amount we approve to process, we will
fulfill your requests in the numeric order listed on your application. We
may not use your total credit access line (the revolving portion of your
total credit line)/credit line when honoring balance transfers. Balance
Transfers may not be used to pay off or pay down any account issued
by Great Western Bank.
DEPARTMENT OF DEFENSE CONSUMER CREDIT DISCLOSURE
Federal law provides important protection to members of the Armed
Forces and their dependents relating to extensions of consumer
credit. In general, the cost of consumer credit to a member of the
Armed Forces and his or her dependent may not exceed an annual
percentage rate of 36 percent. This rate must include, as applicable
to the credit transaction or account: the costs associated with credit
insurance premiums; fees for ancillary products sold in connection
with the credit transaction; any application fee charged (other than
certain application fees for specified credit transactions or accounts);
and any participation fee charged (other than certain participation fees
for a credit card account). For verbal delivery of this disclosure, please
contact us at 1.855.594.3254.
IMPORTANT INFORMATION ABOUT PROCEDURES FOR APPLYING
FOR OR OPENING A NEW ACCOUNT
To help the government fight the funding of terrorism and money
laundering activities, Federal law requires all financial institutions to
obtain, verify and record information that identifies each person who
opens an account.
What this means for you: When you apply for or open an account, we
will ask for your name, address, date of birth and other information
that will allow us to identify you. We may also ask to see your driver’s
license or other identifying documents.

STATE-SPECIFIC INFORMATION
California Residents: Applicants 1.) may, after credit approval, use the
credit card account up to its credit limit; 2.) may be liable for amounts
extended under the plan to any joint applicant.
Ohio Residents: Ohio anti-discrimination laws require creditors to
make credit equally available to all credit worthy customers and
that credit reporting agencies maintain separate credit histories
on individuals upon request. The Ohio Civil Rights Commission
administers these laws.
New York and Vermont Residents: Great Western Bank may obtain
at any time your credit reports, for any legitimate purpose associated
with the account or the application or request for an account,
including but not limited to reviewing, modifying, renewing and
collecting on your account. On your request, you will be informed
if such a report was ordered. If so, you will be given the name and
address of the consumer reporting agency furnishing the report.
New York residents may contact the New York State Department of
Financial Services (1.800.342.3736) for a comparative list of credit card
rates, fees and grace periods.
Married Wisconsin Residents: No provision of any marital property
agreement, unilateral statement, or court order applying to marital
property will adversely affect a creditor’s interests unless, prior to
the time credit is granted, the creditor is furnished with a copy of
the agreement, statement or court order, or has actual knowledge
of the provision.
Please retain this information for your records.
©2019 Great Western Bank. Great Western Bank is a federally registered
service mark. All rights reserved. Products and services offered by Great
Western Bank, Member FDIC. Great Western Bank supports information
privacy protection: see our website at www.GreatWesternBank.com
THE GREAT WESTERN REWARDS PROGRAM
Your Great Western Rewards are earned as points, which can be
redeemed for merchandise, travel or cash back. You will earn 1 point
for every $1.00 spent on net purchases (defined as purchases minus
any returns). You may redeem rewards as long as your account is in
good standing (not delinquent, in default, canceled or closed).
You will not earn points on balance transfers, cash advances or
cash-like charges such as traveler’s checks, foreign currency or money
orders, any checks that are used to access your account, overdraft
advances, interest, unauthorized or fraudulent charges, or fees of any
kind, including fees for products that protect or insure the balances
on your account.
There is no maximum account threshold to the number of points that
you can accumulate and points do not carry an expiration date for the
program as long as your account is open and in good standing.
You will earn bonus double points on select purchases identified
by Great Western Bank based on a calendar set for the program.
Bonus point accumulation and communication will be located
on your monthly Great Western Bank credit card statement.
You may also access your bonus point information at
www.GreatWesternBank.com/ConsumerRewards or by
calling 1.855.594.3254.
Great Western Bank reserves the right to change the terms and
conditions of our rewards program at any time.

©2020, Great Western Bank | Page 2 of 2

GREAT WESTERN BANK
ACCOUNT AGREEMENT
ACCEPTANCE
This Account Agreement (the “Agreement”) includes this document, as well as any credit disclosures you
received with your application or other marketing materials or Offer Materials you have or will receive which are
incorporated herein, as well as the Credit Disclosures that provide in a summary table important Interest Rates
and Interest Charges, as well as Fees and summary disclosures (“Credit Disclosures”) governing your credit
card account (“Account”). You promise to pay for all transactions, INTEREST CHARGES and fees, including
late payment fees, and all other charges provided in this Agreement that you (or anyone you allow to use your
Account) incur and are assessed on your Account, together with past due amounts, if any. This Agreement is
binding if you use your Account or make a payment on it. If you have a Account that was approved with a
primary applicant and a cosigner (a “Joint Account”), either, or both of you are jointly, and separately /
individually bound by this Agreement. Under the Joint Account, each of you is responsible for payment of the
entire amount owed to us. The words “we,” “us” and “our” mean Great Western Bank, which is the issuer of
your credit card and lender for your Account. The words “Cardmember,” “you,” “your” and “yours” mean
everyone responsible for this Account, including the person(s) who applied for the Account and the person(s)
to whom we provide the Account Statements. Cardmembers do not include “Authorized Signers” that have
been authorized by a Cardmember or Cardmembers of a Joint Account to use the Card. The word “Card”
means each card or other access device, such as Account numbers, that we give you to use your Account.
Review carefully this Agreement and the Credit Disclosures in the enclosed letter/card carrier, as the same
may be revised from time to time as provided in this Agreement.
BINDING ARBITRATION: THIS ACCOUNT AGREEMENT CONTAINS AN ARBITRATION PROVISION
THAT SUBSTANTIALLY LIMITS YOUR RIGHT TO BRING A LEGAL ACTION, INCLUDING CLASS
ACTIONS, IN A JUDICIAL FORUM (EXCEPT FOR MATTERS THAT MAY BE BROUGHT IN SMALL
CLAIMS COURT AS SET FORTH HEREIN), UNLESS OTHERWISE PROHIBITED BY LAW. SEE
PARAGRAPH “ARBITRATION PROVISION” HEREUNDER FOR COMPLETE DETAILS.
ACCOUNT FEATURES AND YOUR USE OF THE ACCOUNT
Personal Use – You may use the Account only for personal, family or household purposes. Federal or state
consumer protection laws may not apply if you use the Account for other than personal, family or household
purposes.
Authorized Users – You agree not to allow access to your Card, Account number, Convenience Checks (if
available), or personal identification number (PIN) to anyone else to use your Account, except by asking us to
issue a Card to grant Account access to another person. If you allow access to your Card or Account
information, you will be liable for any charges made by that person, unless and except as expressly required by
applicable law. You agree to be responsible for all Account transactions made by a Cardmember, or anyone
who you have authorized by (1) asking us to issue a Card to grant Account access to another person; (2)
lending your Card to or allowing Account access by another person; or (3) any other way in which you would
be legally considered to have allowed another person to use your Account or to be legally prevented from
denying that you did so. Be cautious when allowing another person to become an authorized user of your
Account; once you allow authority to any authorized user you cannot limit that authority unless the Account is
closed to future transactions. Cardmembers must call or write us with any request to cancel and remove an
Authorized Signer or other person’s authority. We will not provide any Account information to anyone other
than Cardmembers. Authorized Signers or other individuals you authorize will have no right to make any
Account changes, have no access to Account information, will be unable to redeem benefits through the
rewards program, and will not be able to make inquiries.
Credit Limit – The Account Credit Limit is the maximum amount of credit available under the Account at any
time. Under certain circumstances, your Account may exceed the Credit Limit and you will be responsible for
the full amount of the Credit Limit as well as any amounts owed that exceed the Credit Limit. We do not have a
fee if you exceed the Credit Limit, but you will be responsible for paying any other fees on amounts exceeding
the Credit Limit, including INTEREST CHARGES. You may not request or obtain additional advances or
Balance Transfers once you have reached your Credit Limit. The initial Credit Limit is shown on the Card
carrier and your available Credit Limit will also appear on your monthly Account Statements. We reserve the

right to review your Account at any time and increase or decrease your Credit Limit after providing notice
pursuant to applicable law. Joint Accounts will require both Cardmembers to agree to Credit Limit increases.
You may not increase your Credit Limit by carrying credit balances over the Credit Limit we make available to
you.
Purchases – You may use the Account to buy, lease or otherwise obtain goods or services from participating
merchants (including transactions you initiate by mail, telephone or over the Internet), or take advantage of
special promotional Balance Transfer offers that post as Purchase transactions (“Purchases”). We will, in
connection with any promotional offer we make from time to time, provide information on your Card carrier,
promotional documentation, marketing, additional disclosures, or in other additional materials (the “Offer
Materials”) that explain whether those transactions will post and clarify in what situations such transactions will
be treated as a Purchase. Even if you have not signed a sales draft or the merchant has not supplied you with
a written receipt or other proof of sale, you are responsible for all Purchases made through your Account,
except as expressly limited by applicable law (see Your Billing Rights section below for more details).
Cash Advances – Transactions other than Purchases that allow you direct access to funds available through
your Account are Cash Advances. Cash Advances may include Account transactions such as Cash Advances
you obtain directly from us, automated teller machines (“ATMs”) or other participating financial institutions.
Cash Advances also include Cash Advances you request at a bank or other type of financial institution, third
party phone (automated phone system or customer service assisted) and internet transfers. Note, additional
surcharge fees may apply if you use another financial institution’s ATM for the Cash Advance. Unless
otherwise specified in marketing materials you receive with promotional materials, Cash Advances also include
Balance Transfers, wire transfers, transactions using Convenience Checks, using your Card to obtain a
traveler’s check, or certain lottery/betting transactions. Monthly Account Statements we issue may refer to
Cash Advances as an Advance, Cash, Cash Advances, or by the product or device you used to obtain an
Cash Advance. Refer to the Credit Disclosures for details on Cash Advance Fees.
Convenience Checks – From time to time, in our own discretion we may supply Convenience Checks for use
by the person(s) or drawer named on those checks. “Convenience Checks” are drafts that look like other
checks, but are drawn on credit available in your Account. Convenience Checks may not be offered for all
Account types. We will, in connection with any Convenience Check we provide, include Offer Materials that will
explain whether the Convenience Check will post and be treated as a Cash Advance or as a Balance Transfer,
and any fees associated with use of the Convenience Check. Convenience Checks must be written in U.S.
Dollars. We may return a Convenience Check unpaid if: (1) the credit available under your Credit Limit is less
than the Convenience Check amount; (2) the Account is in Default; or (3) the Convenience Check is improperly
endorsed or otherwise fails to conform to our regularly accepted standards for check acceptance. Convenience
Checks may not be used to pay your Account or any obligation you owe us or our affiliates.
Paying And Stopping Payment On Convenience Checks – You must write to us or call to request that
payment be stopped on a Convenience Check. You must call us promptly with an oral stop payment request
and then provide us with a written confirmation of the stop payment request within 14 calendar days. Any
written stop payment request we receive will remain in effect for 6 months, unless you renew the request in
writing before the end of that time. We may pay Convenience Checks more than 6 months old. There may be
circumstances under which a Convenience Check must be paid, even if we have received a stop payment
request from you. We will not be liable to you if we do not honor your stop payment request under those
circumstances. If it is determined that a Convenience Check should have been paid, but was not, we will not
be liable for any consequential, punitive or incidental damages if we acted in good faith. Our only obligation
under those circumstances will be to pay the designated payee the amount of the Convenience Check and
cancel any charges assessed against your Account as a result of any wrongful failure to honor the
Convenience Check. Please review carefully the Offer Materials identifying fees and charges on any future
promotions.
Balance Transfers – We may permit you to transfer balances and obligations that you owe other companies
or financial institutions to your Account, subject to the terms and conditions disclosed in the Offer Materials
(“Balance Transfers”). Balance Transfers will post to your Account and be separately reflected on monthly
Account Statements as a Balance Transfer, or, depending upon the offer, may post to the Account and be

treated as a Purchase or an Advance. We will, in connection with any Balance Transfer offer we make, provide
you with materials that explain how the Balance Transfer will post to your Account and be reflected on monthly
Account Statements. You may not request Balance Transfers on existing obligations you owe us or our
affiliates. If you request a Balance Transfer that would cause your Account to exceed its Credit Limit, we may,
at our option, (1) post the entire Balance Transfer requested to your Account; (2) post only a portion of the
Balance Transfer requested to your Account up to the amount of credit available under the Credit Limit; or (3)
refuse to process the entire amount of the Balance Transfer requested.
Using Your Card for International Transactions – You may use your Card for retail Purchases at foreign
merchants and for cash withdrawals from foreign ATMs. Some merchant and ATM transactions, even if you
and/or the merchant or ATM are located in the United States, are considered foreign transactions under the
applicable rules, in which case we will add the Foreign Transaction Fee INTEREST CHARGE described in the
Credit Disclosures to those transactions. We do not control how these merchants, ATMs, and transactions are
classified for this purpose. The exchange rate in effect when the transaction is processed may differ from the
rate in effect on the date of the transaction or the date of the posting of the transaction to your Account. If you
engage in a Transaction in a currency other than U.S. Dollars using a Visa card, then Visa International will
convert the charge into a U.S. Dollar amount. The exchange rate between the transaction currency and the
billing currency used for processing international transactions is either (a) a rate selected by Visa from the
range of rates available in wholesale currency markets for the applicable central processing date, which rate
may vary from the rate Visa itself receives, or (b) the government-mandated rate in effect for the applicable
central processing date. The currency conversion rate for the processing date may differ from the rate in effect
on the date of the transaction or the date the transaction is posted to your billing statement.
Some merchants outside of the United States offer cardholders the option of having card transactions
converted to U.S. Dollars by the merchant itself. If this option is chosen, the currency conversion rate is
determined solely by the merchant involved in the transaction, and no Foreign Transaction Fee INTEREST
CHARGE is charged by the Bank for the Transaction.
INTEREST CHARGES
INTEREST CHARGES – INTEREST CHARGES reflect the cost of credit. Your total INTEREST CHARGE for
any billing cycle will equal the amount of any (a) periodic rate INTEREST CHARGES (sometimes referred to
as “interest” in this Agreement and on monthly Account Statements); (b) Cash Advance Fees; and (c) any
other transaction fees that are considered INTEREST CHARGES.
Standard Versus Standard Variable Rates – The Credit Disclosures will indicate whether your account is
subject to Standard or Standard Variable rates, or a combination of Standard and Standard Variable rates.
Please review those disclosures carefully. The terms of those disclosures are incorporated by reference into
this Agreement.
Standard Variable Rates – If your Account is subject to Standard Variable Rates, the standard periodic rate(s)
is a variable rate(s) based on the “Index Rate” plus the applicable “Margin”. For each billing period, the “Index
Rate” will be equal to the U.S. Prime Rate, or the average of the U.S. Prime Rates if there is more than one,
published in the “Money Rates” column of The Wall Street Journal as of the 15th day of the month prior to your
Account Statement closing date (subject to any minimum APRs that may be applicable to your Account). If the
U.S. Prime Rate is not published or is otherwise unavailable, whether temporarily or permanently, we will
select a substitute index that we believe, in our sole discretion, to be similar to the U.S. Prime Rate. Please see
the Credit Disclosures for the amount of the “Margin” on Purchases and the “Margin” on Cash Advances as
well as the Daily Rates and corresponding ANNUAL PERCENTAGE RATES as applicable to your Account.
This disclosure will also indicate whether there are any minimum APRs applicable to your account. If
applicable, the rates for Purchases and Cash Advances will not decrease below the stated minimum APRs
regardless of changes to the Index Rate.
The Daily rates are calculated by adding the applicable “Margin” to the Index Rate, and dividing that sum by
365. This calculation produces the Daily Variable Rates. The Daily Variable Rates will increase or decrease as
a result of increases or decreases in the Index Rate. An increase or decrease in the Daily Variable Rates may
result in an increase or decrease in the amount of your minimum monthly payment. An increase or decrease in

the Daily Variable Rates will also increase or decrease the total amount of Interest you pay on your account. If
our calculation results in a change to the Daily Variable Rate due to a change in the Index Rate, the new rate
will apply as of the first day of your billing period in which we made the calculation. Any changes in the Daily
Variable Rates will apply to both existing and future balances on your Account, and the Daily Variable Rates
will continue to vary even if your Account is closed.
Standard Rates – If your Account is subject to Standard Rates, the Credit Disclosures will indicate the rate(s)
applicable to the type(s) of balances on your Account. Please refer to the Credit Disclosures for the Standard
Daily Rates and corresponding ANNUAL PERCENTAGE RATES for Purchases and/or Cash Advances
applicable to your account.
The INTEREST CHARGE is calculated separately for Purchases and Advances. The INTEREST CHARGE is
determined by multiplying the Average Daily Balance by the Daily Variable Rate or the Standard Daily Rate (as
applicable) and by the number of days in the billing cycle.
The Average Daily Balance for Purchases is obtained by taking into account the initial daily balance on
Purchases, plus any new Purchases, and any other fees and charges that we add that day, minus any
payments and credits we apply to the Purchase balance that day and any unpaid INTEREST CHARGES on
Purchases. Then all the daily balances within the billing cycle are added and the total is divided by the number
of days in the billing cycle. New Purchases are added to the daily balance on posting date, unless we elect to
use a later date. Purchases will begin to accrue INTEREST CHARGES on the date of posting. No INTEREST
CHARGE will be imposed on a Purchase added to your daily balance during the billing cycle covered by the
Account Statement if that Account Statement shows no previous balance or shows that the previous balance
was paid in full by its payment due date. Also, no additional INTEREST CHARGE will be charged on any
Purchases included in the new balance of a monthly Account Statement if you pay the new balance in full on or
before the date specified in your Account Statement. The payment due date will be 21 days or more,
depending upon the payment due date on your Account.
The Average Daily Balance for Advances is obtained by taking into account the initial daily balance on
Advances, plus any new Advances, and any other Advance fees that we add that day, minus any payments
and credits we apply to the Advance balance that day and any unpaid INTEREST CHARGES on Advances,.
Then all the daily balances within the billing cycle are added and the total is divided by the number of days in
the billing cycle. The INTEREST CHARGE on Advances, Balance Transfers and Convenience Checks will be
imposed from the date the transaction is conducted. There is no grace period for such transactions.
Please refer to the accompanying Credit Disclosures for other terms which are made a part of this Agreement.
We do not have a minimum INTEREST CHARGE.
Introductory and Promotional Rates – We may, at our option, offer you for a limited time introductory or
promotional interest rates for all or part of new Purchase, Advance, or Balance Transfers posted to your
Account. We will tell you in the Offer Materials the introductory or promotional rate and the period of time
during which that rate will be in effect and any conditions or requirements of the offer. Unless the Offer
Materials state otherwise, an introductory or promotional rate will remain in effect until the last day of the billing
cycle in which the introductory or promotional rate expires. Upon expiration, any introductory or promotional
rate that applies to new or outstanding Account balances will increase to the standard rate that would
otherwise apply.
ACCOUNT FEES
Annual Fee – The Account has no Annual Fee.
Late Payment Fee – We may add a Late Payment Fee to the Purchase balance of the Account if your
Minimum Payment is not received by the Payment Due Date shown on the monthly Account Statement. Under
no circumstances will your Late Payment Fee or Returned Payment Fee ever be greater than your Minimum
Payment due.

Returned Payment Fee – We may add a Returned Payment Fee to the Purchase balance of the Account if
any payment on the Account is not honored or if we must return it to you because it cannot be processed. A
check that is returned unpaid will be sent for collection.
Duplicate Documentation Fee – We may charge you a Duplicate Documentation Fee to the Purchase
balance of the Account for copies of a monthly Account Statement, sales slip, refund slip, or Advance slip that
you request. There will be no charge for documentation requests made in connection with a billing error notice,
if our investigation indicates a billing error occurred.
Assisted Payment Fee – We may add a service charge to the Purchase balance of the Account if you call us
to make an expedited payment on your Account and are assisted by a Cardmember Service Representative to
make the payment, in the amount of $10.00. You will be provided with confirmation of the service charge
before the payment transaction is authorized.
Stop Payment Fee – In the event we offer a promotional Convenience Check product and you request a stop
payment of the Convenience Check we have offered, we may add a Stop Payment Check Fee to the Purchase
balance of your Account. (See “Paying and Stopping Payment on Convenience Checks” section above, as well
as disclosures provided in future Offer Materials for more details and fees, if any, related to stop payments of
Convenience Checks.)
TRANSACTION FEES – You agree to pay the following transaction fees and INTEREST CHARGES:
(1) We may add a Cash Advance Fee INTEREST CHARGE to the Advance balance of the Account for each
Advance you obtain during a billing cycle in addition to the interest that accrues on Advances. The Cash
Advance Fee imposed will equal the greater of either a percentage of each Cash Advance or the minimum
dollar amount, subject to the maximum dollar amount.
(2) During certain promotions, certain Balance Transfers may be subject to a Balance Transfer Fee INTEREST
CHARGE to the Purchase balance of the Account except where Offer Materials specify otherwise. See future
Offer Materials provided during such promotions, regarding how this fee will be applied.
(3) We may add a Convenience Check Fee INTEREST CHARGE to the Cash Advance balance of your
Account except where Offer Materials specify otherwise. See future Convenience Check Offer Materials
provided during such promotions, regarding how this fee will be applied.
(4) Foreign Transaction Fees will apply in certain circumstances. See the Using Your Card for Foreign
Transactions paragraph for more information.
ACCOUNT PAYMENTS
Minimum Payment – Each month, you must pay at least the Minimum Payment and any past due Minimum
Payment(s) by the Payment Due Date shown on your monthly Account Statement. You may, at your option,
pay more than the Minimum Payment or pay the New Balance (as stated on your monthly Account Statement)
in full to reduce or avoid the INTEREST CHARGE for the Account.
Your Minimum Payment will be calculated as follows: first we determine the “Base Minimum Payment,” which
is the greater of $20.00 or 2.5% of your New Balance. To the Base Minimum Payment, we may add one or
more of the following items, as incurred on your Account: (1) any late, annual and/or any other Account related
fee, (2) the INTEREST CHARGE, and (3) if your Account is over the Credit Limit, some or all of the balance
amount over your Credit Limit. If the resulting Minimum Payment is greater than $20.00, the total is then
rounded to the next highest dollar not to exceed your New Balance. Any Minimum Payment or additional
amount you pay each month will not prepay any future Minimum Payments required, or change your obligation
to make at least a Minimum Payment by the Payment Due Date. Our Minimum Payment may be adjusted as
necessary to comply with state or federal regulations applicable to your account.
Payment Instructions – All payments by mail must be made by check or money order. We will also accept
payment in U.S. Dollars via the Internet or phone or previously established automatic payment transaction.
Payments may not be made by attempting to effect a transfer or by using a Convenience Check from this
Account or from any other Great Western Bank credit card account. You agree that any payment you make
may be, but is not required to be, returned to you without applying it to your Account and without presentment
or protest, for reasons including, but not limited to, that the check or money order: (1) is missing a signature;

(2) is drawn with different numeric and written amounts; (3) contains a restrictive endorsement; (4) is post
dated; (5) is not payable to Great Western Bank; (6) is not payable in U.S. Dollars; (7) is not paid upon
presentment; or (8) results from an attempted transfer or is drawn on a Convenience Check. You agree to pay
any collection fees we incur for any check payments made in U.S. Dollars drawn on a financial institution not
located in the United States. All payments made by mail under this Agreement must be received at the address
specified on your Account Statement. We reserve the right to reject any payment that is not drawn on the U.S.
Post Office or a financial institution that is not located in the United States.
You authorize us to collect any payment check either electronically or by draft. We can collect your payment
checks electronically by sending the check number, check amount, account and routing numbers to your bank.
Or we can collect these checks by sending a draft drawn on your bank account. Funds may be taken from your
bank account on the same day we receive your payment. We will not keep your original check, just a copy of it.
Any conditional check, money order or any other instrument tendered as full satisfaction of a disputed debt or
as an accord and satisfaction or containing a restrictive endorsement must be sent to us at Great Western
Bank, Cardmember Service Center, P.O. Box 3587, Omaha, NE 68103-0587. You must note conspicuously on
the face of the payment that it is tendered for this purpose. If you make a payment in any other manner and we
accept it, we will not have waived our rights to collect any amounts owed under this Agreement. Even though
your payment may be posted to your Account, we may not restore your available credit or Cash Advance
available credit immediately.
Crediting of Payments and Cutoff Times – The date you mail a payment is different than the date we
receive that payment. For purposes of this Agreement, the payment date is the day we receive your check or
money order at the address specified on your monthly Account Statement or the day we receive your
electronic or phone payment. If you mail your payment without a payment coupon or to an incorrect address, it
may result in a delayed credit to your Account, additional INTEREST CHARGES, fees, and possible
suspension of your Account. Your payment will be credited as of the day we receive it, subject to any
applicable cutoff hour. The cutoff time for payments received by mail, telephone and other electronic means is
5:00 p.m. Central Time. Payments received by 5:00 p.m. Central Time, Monday through Friday, will be
processed the same day. Online payments received on Saturday, Sunday or a Bank holiday will be processed
the next business day. If the payment is made at one of our branches during business hours in cash or with a
check drawn against us, it will be processed the same day, up to 5:00 p.m. Central Time Credit for any other
payments may be delayed five (5) business days during which interest will not accrue. If your payment due
date falls on a weekend or legal federal holiday, the payment received will be credited to the account on the
next business day and will not be considered late. If your payment is received after the payment cutoff time on
the due date or any time thereafter, a Late Payment Fee will be charged to your Account.
Application Of Payments – If you pay the required Minimum Payment of the monthly Account Statement, the
payment shall be applied in the following way: first to FEES, then to INTEREST, and the rest shall be applied
first to the debt resulting from Purchases and Cash Advances, with the lowest APR and then to the debt with
the higher APR in ascending order. Consequently, the debt with the higher APR will not be reduced, until the
debt with the lower APR is paid in full. If you pay an amount in excess of the minimum required payment, the
excess shall be applied first to the debt resulting from Purchases and Cash Advances with the highest APR
and then to the debt with the lowest APR in descending order.
Skip Payment Option – We may, at our option, occasionally offer you an opportunity to skip your obligation to
make the Minimum Payment due. You may not skip payments unless we make this offer to you. If we offer you
an opportunity to skip a payment more than once in a 12 month period, you will not be permitted to skip
payments required in consecutive months. You cannot accept a skip payment offer if your Account is
delinquent, or is in Default. When you take advantage of a skip payment offer, the interest will continue to
accrue on the entire unpaid balance of your Account.
Credit Balances – You may request a refund of any credit balance at any time. Otherwise, we will apply it to
any new charges on your Account or provide the refund to you as required by law. If refund to any credit
balance sent to you remain uncashed or unclaimed, the Bank may need to report it to the unclaimed property
division in the state where the Account is, based on that state’s unclaimed property laws.

IMPORTANT ACCOUNT INFORMATION
Monthly Account Statement – We will provide you a monthly Account Statement at the end of each billing
cycle in which you have a balance in excess of $1 or a credit balance in excess of $0.99. Unless you have
elected to receive such materials electronically, your monthly Account Statements and notices about your
Account will be sent to the address you provided in your application or your response to our Account
solicitation. To change your address, you must call or write to us. We must receive this information 21 days
before the date a billing cycle closes to provide your monthly Account Statement at your new address. If you
have an address change within 45 days of the expiration date of your Card(s), please contact Cardmember
Service with your new address so your new Card(s) can be mailed to your new address.
Responsibility to Pay – You agree to pay us for all Purchases, Cash Advances, Balance Transfers,
INTEREST CHARGES, Account Fees and charges, any other transaction charges as provided in this
Agreement and, to the extent permitted under applicable law, attorneys fees and collection costs we incur
enforcing this Agreement against you. This is the case even if your Account is only used by one of you, or is
used by someone authorized by only one of you. If there is more than one Cardmember, each of you is
responsible, together and separately, for the full amount owed on your Account. Your obligation to pay the
Account balance continues even though an agreement, divorce decree, court judgment, or other document to
which we are not a party may direct another person responsible to pay the Account.
Default And Termination Of Credit Privileges – You will be in default under this Agreement (“Default”) upon:
(1) your failure to make at least the Minimum Payment by the date specified on your Account Statement; (2)
your violation of any other provision of this Agreement; (3) your death; (4) your becoming the subject of
bankruptcy or insolvency proceedings; (5) you or your property becoming the subject of attachment,
foreclosure, repossession, lien, judgment or garnishment proceedings; (6) your failure to supply us with any
information we reasonably deem necessary; (7) your supplying us with misleading, false, incomplete or
incorrect information; (8) our receipt of information that you are unwilling or unable to perform the terms and
conditions of this Agreement; (9) our receipt of information from third parties, including credit reporting
agencies, which indicates a serious delinquency or charge-off with other creditors; or (10) your moving out of
the U.S. After your Default, your Account balance will continue to accrue INTEREST CHARGES at the contract
rate. Balances outstanding under this Agreement when your credit line is reduced or terminated will continue to
accrue INTEREST CHARGES until paid in full and subject to all terms and conditions of this Agreement. Upon
default, we have the right to terminate or suspend your credit privileges under this Agreement, to change the
terms of your Account and this Agreement, may require you to pay your entire Account balance including all
accrued but unpaid charges immediately as permitted by law and to sue you for what you owe. We may waive
or delay enforcing any of our rights as to one person under this Agreement without affecting the obligation of
any other person. If this is a Joint Account, a default by one of you will be a default by all of you. You will pay
our court, reasonable attorney’s fees and other collection costs related to the default to the extent permitted by
applicable law. Upon default, we will apply your payments first to attorneys’ fees and then in the order set forth
under Application of Payments. We may continue to impose INTEREST CHARGES after default (including
charge-off).
Changes to your Account – Account and Agreement terms are not guaranteed for any period of time; we
may change the terms of your Agreement, including APRs and fees, in accordance with applicable law and the
terms of your Agreement, after notice to you. Your transactional experience with us may also cause a change,
including an increase in the margin that is added to the Prime Rate, an increase in fees, or a decrease in the
Credit Limit. Factors considered in determining the increased rate or Credit Limit decrease may include your
general credit profile, existence, seriousness and timing of the defaults under any agreement that you have
with us, and other indications of the Account usage and performance. We currently do not charge a penalty
APR, and we will give you the written notice of any such change in the manner required by law if we should
add a penalty APR. Any Agreement changes to APRs and fees will apply to all new Account balances you owe
under your Account as of the effective date indicated in the notice or otherwise permitted by applicable law. All
other Agreement changes will apply to all new and outstanding Account balances you owe under your Account
as of the effective date indicated in the notice or otherwise permitted by applicable law. If you do not want to
accept the changes, you must provide us with written notice at the address contained in the change in terms
notice no later than 25 days after the effective date of the change. In this case, we will close your Account and

permit you to pay off the outstanding Account balances in full at that time or under the terms of your existing
Agreement. You will have accepted any proposed change if your Account is used after the effective date of the
changed terms, even if 25 days has not elapsed after any such effective date.
Card Renewal – Cards are issued with an expiration date. We have the right not to renew your Card for any
reason.
Lost Or Stolen Cards And/Or Convenience Checks (if available); Unauthorized Use – If you notice the loss
or theft of your Card or a possible unauthorized use of your Account, you should write to us immediately at:
Great Western Bank, P.O. Box 2345, Sioux Falls, SD 57101-2345 or call us at 1-855-594-3254. You will not be
liable for any unauthorized use of your Account. If this happens, we will ask you and all other persons given
Account access to return all Cards and unused Convenience Checks to us. In addition, we have the right to
close your Account and open a new Account. If we do so, new Cards will be issued. If requested, we may
issue a new PIN and new Convenience Checks (if available) for your new Account.
Cancellation – We may cancel your Account or suspend your ability to obtain Account credit immediately,
without notice, if your Account is in Default. Even if you are not in Default, we may cancel your Account by
providing notice to you. You may cancel your Account by notifying us by telephone or in writing. If you have a
secured Account, your termination request must be made in writing. If this is a Joint Account, we will honor a
request by either of you to cancel the Account. Authorized users do not have the ability to cancel the Account.
After the Account is cancelled, you will not be able to obtain additional Account credit, except that, (1) the
Account may continue to receive recurring charges for items and services until you contact and cancel delivery
with the company providing the item or service, or (2) under certain circumstances if you use your Account for
a transaction, the transaction may be posted to your Account. After your Account is cancelled, all amounts
outstanding on your Account will be due and payable without notice or demand from us. You must cut all Cards
and Convenience Checks in half and return them to us. You agree that we may also cancel or suspend your
Account if there appears to be suspicious activity occurring on it.
Applicable Law – This Agreement will be governed by the laws of South Dakota (without regard to its conflict
of laws principles), whether or not you live in South Dakota, and whether or not your Account is used outside of
South Dakota, and by any applicable federal laws. You agree that: (1) this Agreement is entered into in South
Dakota; (2) all credit under this Agreement will be extended from South Dakota; and (3) all credit extended
under this Agreement is subject to, and governed by, South Dakota law. All terms and conditions of this
Agreement (including the Amendment provision or any other provision herein relating to a change in the terms
of this Agreement, this Applicable Law provision, and any of the INTEREST CHARGE, Application of Payment
and Fee provisions) are deemed to be material to a determination of the INTEREST CHARGE.
Assignment Of Account – We may sell, assign or transfer your Account or any portion thereof without notice
to you. You may not sell, assign or transfer your Account. In addition, we may refer the Account to a collection
agency or attorney who shall be entitled to enforce this Agreement according to its terms, and any of our rights
shall apply to those persons.
DEPARTMENT OF DEFENSE CONSUMER CREDIT DISCLOSURE
Federal law provides important protection to members of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and
his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as
applicable to the credit transaction or account: the costs associated with credit insurance premiums; fees for
ancillary products sold in connection with the credit transaction; any application fee charged (other than certain
application fees for specified credit transactions or accounts); and any participation fee charged (other than
certain participation fees for a credit card account). For verbal delivery of this disclosure, please contact us at
1-855-594-3254.
PROTECT YOUR PERSONAL INFORMATION
Smart phones, some tablets or other mobile devices (a “mobile device”) can download, store, and/or access
account information, for instance through a mobile wallet, that may enable you to use the mobile device to
purchase goods or services, make a Purchase, Balance Transfer, or make a Cash Advance. In certain

instances, those transactions will replicate using your Card to make a transaction on the internet with your
computer. In other instances, the phone or mobile device will act as if it were a Card itself. Applications that
enable your mobile device will have unique terms governing those applications. Read them carefully.
Transactions made through those applications are governed by this Agreement. When your Account
information is accessible by your mobile device, it is important that you treat your mobile device with the same
care you would your Card. For example, you should secure your mobile device against unauthorized access.
Keep in mind, if you give someone your phone, or other mobile device, that can be the same as giving that
person your Card.
THE ISSUER’S LEGAL RIGHTS AND OBLIGATIONS
Collecting Credit Information about You – You authorize us to make any credit, employment and
investigative inquiries we feel are appropriate related to giving you credit or collecting amounts owed on your
Account. You agree that a consumer credit report may be requested periodically from one or more consumer
reporting agencies (“Credit Bureaus”) and used in connection with your application and any update, renewal or
extension of credit. We may report information about your Account to credit bureaus. Late payments, missed
payments, or other defaults on your Account may be reflected in your credit report. If you request additional
Cards on your Account for others, you understand that we may report account information in your name as well
as in the name(s) of those additional cardholder(s).
Credit Bureau Disputes – If you believe we inaccurately reported credit history information about you or your
Account to a Credit Bureau, call us at 1-855-594-3254 or write us at Great Western Bank, P.O. Box 2345,
Sioux Falls, SD 57101-2345. Please include your name, address, home phone number, account number, and
explanation of what you believe to be inaccurate or incomplete.
Privacy Policy and Disclosure of Account Information – A copy of our Privacy Policy was included with
your original Agreement. You will also receive a copy at least once annually while you remain our customer.
We also keep copies of our Privacy Policy in financial institution offices and post it on our web site. Our Privacy
Policy describes how we collect, protect and use confidential financial and other information about you and the
circumstances in which we might share information about you with members of our corporate family and with
unaffiliated third parties. Our Privacy Policy also tells you how you can (1) limit the ways we share certain kinds
of information about you and (2) request corrections to the information we maintain about you.
Refusal to Honor Transactions – We and our agents are not responsible if anyone refuses to honor your
Card or a Convenience Check, or if authorization for a particular transaction is not given. Although you may
have credit available under your Account, we may be unable to authorize credit for a particular transaction. The
number of transactions you make in one day may be limited, and the limit per day may vary. These restrictions
are for security reasons and as a result we cannot explain the details of how this system works. If your Account
is over the Credit Limit or delinquent, authorization of credit for transactions may be declined. We are not
responsible for anything purchased with your Card or a Convenience Check, except as expressly required by
applicable law (see Your Billing Rights section below for more details). You must return goods you purchased
with the Card or Account to the merchant and not to us.
Third Party Offers – From time to time, third parties may provide you with benefits not related to the extension
of Account credit. We are not liable for these features, services and enhancements, as they are the sole
responsibility of the third party provider. We and/or a third party may add, change or delete entirely these
benefits without notice or liability to you, to the extent permitted by applicable law. You agree to hold us
harmless from any claims, actions or damages resulting from your use of any of these features, services or
enhancements, where permitted by applicable law.
Telephone Monitoring and Contacting You – From time to time we may monitor and record telephone calls
regarding your Account to ensure the quality of our service, and by using the Card, you agree to such
monitoring and recording. We may not remind you that we are monitoring or recording a call at the outset of
the call, unless required by law to do so. You agree in order for us to service the Account or to collect any
amounts you may owe, that we may from time to time make calls and/or send e-mails, and/or text messages to
you, using prerecorded/artificial voice messages and/or through the use of an automatic dialing device, at any

telephone number associated with your Account, including wireless telephone numbers that could result in
charges to you, or at any e-mail address you provide to us.
Change of Name, Address, or Telephone Number(s) – You are responsible for promptly notifying us of a
change in your name, address (including the e-mail addresses you use for online banking with us and any
other e-mail address(es) at which you agree to be contacted), or telephone number(s) (including any wireless
telephone number(s)).
Severability – If a court of competent jurisdiction finds any part of this Agreement illegal or unenforceable, the
remaining portions of the Agreement will remain in effect as written after any such illegal or unenforceable
portion is amended in conformance with applicable law or, if necessary, voided.
Waiver – We do not give up our rights under the Agreement or applicable law when we fail to exercise or delay
exercising those rights. Our failure or delay to exercise any right or remedy we have against you does not
mean that we waive that right.
Arbitration Provision:
(a) You agree that either you or we can choose to have binding arbitration resolve any claim, dispute or
controversy between you and us that arises from or relates to this Agreement or the Account and
credit issued thereunder (individually and collectively, a “Claim”). This does not apply to any Claim in
which the relief sought is within the jurisdictional limits of, and could be fully and properly adjudicated
by, a small claims court. If arbitration is chosen by any party, the following will apply:
(1) NEITHER YOU NOR WE WILL HAVE THE RIGHT TO LITIGATE A CLAIM IN COURT OR TO HAVE A
JURY TRIAL ON A CLAIM, OR TO ENGAGE IN PRE-ARBITRATION DISCOVERY, EXCEPT AS
PROVIDED FOR IN THE APPLICABLE ARBITRATION RULES.
(2) Arbitration will only decide our or your Claim, and you may not consolidate or join the claims of
other persons who may have similar claims. YOU WILL NOT HAVE THE RIGHT TO PARTICIPATE AS A
REPRESENTATIVE OR MEMBER OF ANY CLASS OF CLAIMANTS, OR AS A PRIVATE ATTORNEY
GENERAL, PERTAINING TO ANY CLAIM SUBJECT TO ARBITRATION.
(3) The arbitration will be performed in accordance with this Arbitration Provision and the rules of the
chosen arbitrator in effect when the Claim is filed.
(4) The arbitrator’s decision will generally be final and binding, except for the limited right of appeal
provided by the Federal Arbitration Act.
(5) Other rights that you would have if you went to court might also not be available in arbitration.
(b) The party commencing the arbitration may select to use either JAMS or the American Arbitration
Association (“AAA”) (or, if neither of these arbitration organizations will serve, then a comparable
substitute arbitration organization agreed upon by the parties or, if the parties cannot agree, chosen by
a court of competent jurisdiction). If JAMS is selected, the arbitration will be handled according to its
Streamlined Arbitration Rules unless the Claim is for $250,000 or more, in which case its
Comprehensive Arbitration Rules shall apply. If the AAA is selected, the arbitration will be handled
according to its Commercial Arbitration Rules. You may obtain rules and forms for JAMS by contacting
JAMS at 1-800-352-5267 or www.jamsadr.com and for the AAA by contacting the AAA at 1-800-7787879 or www.adr.org. Any arbitration hearing that you attend will take place in the federal judicial
district where you reside. At your request, we will advance your filing and hearing fees for any Claim
you may file against us. If you prevail on your Claim, we will pay your arbitration costs and fees, other
than attorney, expert and witness fees and expenses. We will also pay any fees or expenses that
applicable law requires us to pay. The arbitrator shall apply applicable substantive law consistent with
the Federal Arbitration Act, 9 U.S.C. §§ 1 through 16, including but not limited to applicable statutes of
limitation, and shall honor claims of privilege recognized at law. Judgment upon the award rendered by
the arbitrator may be entered in any court having jurisdiction.
(c) This Arbitration Provision shall survive repayment of your extension of credit and termination of
your Account. This Arbitration Provision shall be governed by federal law, including the Federal
Arbitration Act, and by South Dakota law, without regard to its internal conflict of law principles, to the
extent such state law does not conflict with federal law or this Arbitration Provision. Notwithstanding
any language of this Agreement to the contrary, should any portion of this Arbitration Provision be
held invalid or unenforceable by a court or other body of competent jurisdiction, this entire Arbitration

Provision shall be automatically terminated and all other provisions of this Agreement shall remain in
full force and effect.

***
YOUR BILLING RIGHTS: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Account Statement
If you think there is an error on your Account Statement, write to us at:
Great Western Bank, P.O. Box 2345, Sioux Falls, SD 57101-2345 In your letter, give us the following
information:
 Account information: Your name and account number.
 Dollar amount: The Dollar amount of the suspected error.
 Description of problem: If you think there is an error on your Account Statement, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:
 Within 60 days after the error appeared on your Account Statement.
 At least 3 business days before an automated payment is scheduled, if you want to stop payment on
the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to
investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell
you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe
the Account Statement is correct.
While we investigate whether or not there has been an error:
 We cannot try to collect the amount in question, or report you as delinquent on that amount.
 The charge in question may remain on your Account Statement, and we may continue to charge you
INTEREST CHARGES on that amount.
 While you do not have to pay the amount in question, you are responsible for the remainder of your
balance.
 We can apply any unpaid amount against your Credit Limit.
After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any INTEREST CHARGES or other
fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable
INTEREST CHARGES and fees. We will send you an Account Statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your Account Statement is wrong, you must write to us within 10
days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without also
reporting that you are questioning your Account Statement. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even
if your Account Statement is correct.

Your Rights If You Are Dissatisfied With Your Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your Card and you have tried in
good faith to correct the problem with the merchant, you may have the right not to pay the remaining amount
due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing
address, and the purchase price must have been more than $50. (Note: Neither of these are necessary
if your purchase was based on an advertisement we mailed to you, or if we own the company that sold
you the goods or services.)
2. You must have used your Card for the purchase. Purchases made with Cash Advances from an ATM
or with a check that accesses your Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
Great Western Bank, P.O. Box 2345, Sioux Falls, SD 57101-2345
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.
SPECIAL RULES FOR CREDIT CARD PURCHASES DO NOT APPLY TO PURCHASES MADE WITH
CONVENIENCE CHECKS OR BALANCE TRANSFER CHECKS.

Credit Card
Account Agreement
M-127901

